           Office Of Inspector General




December 20, 2004

RICHARD J. STRASSER, JR.
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT:         Transmittal of Audit Report - Postal Service Officers’ Travel and
                 Representation Expenses for Fiscal Year 2004
                 (Report Number FT-AR-05-003)

This report presents the results of our audit of the Postal Service officers’ travel and
representation expenses for fiscal year 2004 (Project Number 04XD014FT000). The
audit was conducted in response to the Board of Governors’ policies and procedures
requiring annual audits of officers' travel and representation expenses.

Postal Service officers incurred $1.4 million in travel and representation expenses for
the year ended September 30, 2004. Our audit disclosed that, based on sample
results, these expenses were properly supported and complied with Postal Service
policies and procedures. The results of the audit were discussed with Postal Service
management on October 25, 2004. Because there were no recommendations provided,
management chose not to respond to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact John E. Cihota,
Director, Financial Statements, or me at (703) 248-2300.

/s/ John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

Attachment

cc: Lynn Malcolm
    Stephen J. Nickerson
    Margaret A. Weir
    Steven R. Phelps

   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Postal Service Officers’ Travel and Representation                                                   FT-AR-05-003
 Expenses for Fiscal Year 2004


                                            INTRODUCTION
    Background                     The Postal Reorganization Act of 1970, as amended,
                                   requires annual audits of the Postal Service’s financial
                                   statements. As part of these audits, the Board of Governors
                                   adopted policies and procedures that require annual audits
                                   of officer travel and representation expenses.

                                   Postal Service officers shape the strategic direction of the
                                   Postal Service by setting goals, targets, and indicators
                                   within the framework established by the Postal Service
                                   Board of Governors. Their positions are classified as
                                   Postal Career Executive Service II and include the
                                   Postmaster General, Deputy Postmaster General, and all
                                   Vice Presidents. The Board of Governors has authorized
                                   50 Postal Service officer positions.

                                   Postal Service officers are reimbursed for actual expenses
                                   incurred on official travel. They are also reimbursed for
                                   representation expenses incurred with customer, industry,
                                   or employee groups with whom the Postal Service conducts
                                   official business.

    Objectives, Scope,             Our audit objective was to determine whether travel and
    and Methodology                representation expenses claimed by Postal Service officers
                                   were properly supported and complied with Postal Service
                                   policies and procedures.

                                   To accomplish our objective, we conducted fieldwork from
                                   June through November 2004. Postal Service officers’
                                   travel expense guidelines were issued by the Postmaster
                                   General on November 8, 1999, and updated on June 14,
                                   2001. We used these guidelines as our criteria in
                                   evaluating reported expenses. We statistically selected and
                                   reviewed 56 of 1,1321 electronic travel reimbursements
                                   covering expenses incurred during fiscal year (FY) 2004.

                                   This audit was conducted from June through
                                   December 2004 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls, accounting records and other auditing
                                   procedures as were considered necessary. Our tests of
                                   controls were limited to those necessary to achieve our
                                   audit objectives. Our procedures were not designed to
1
  The 56 travel reimbursements reviewed totaled about $64,000, and the total amount for the 1,132 travel
reimbursements was $1.4 million.


                                                         1
Postal Service Officers’ Travel and Representation                                                      FT-AR-05-003
 Expenses for Fiscal Year 2004


                                    provide assurance on internal controls. Consequently, we
                                    do not provide an opinion on such controls. We discussed
                                    our observations and conclusions with appropriate
                                    management officials and included their comments, where
                                    appropriate.

                                    We performed specific internal control and transaction tests
                                    on the e-Travel system data to provide assurance the data
                                    was properly entered and approved.

    Prior Audit Coverage            We have audited Postal Service officers’ travel and
                                    representation expenses since FY 1998 and have not
                                    identified any reportable conditions. The results of our most
                                    recent audit for FY 2003 were disclosed in our report, Postal
                                    Service Officers’ Travel and Representation Expenses for
                                    Fiscal Year 2003 (Report Number FT-AR-04-003, dated
                                    January 15, 2004).

    Audit Results                   Based on the sample results, travel and representation
                                    expenses totaling $1.4 million, incurred by officers of the
                                    Postal Service for the year ended September 30, 2004,
                                    were properly supported and complied with established
                                    Postal Service policies and procedures.2

    Management’s                    The results of the audit were discussed with Postal Service
    Comments                        management on October 25, 2004. Because there were no
                                    recommendations provided, management chose not to
                                    respond to this report.

    Evaluation of                   No action by management was required.
    Management’s
    Comments




2
  The sample results returned zero deviations. The upper error limit on these results is 5 percent and meets the
tolerable error planned. There is a 95 percent chance that the true deviation rate in the population does not exceed
the tolerable deviation rate of 5 percent. Since the results meet our design criteria, we conclude that the submitted
vouchers were properly supported and complied with established Postal Service policies and procedures.


                                                           2
